HHS/OIG, Audit - "Review of Medicaid Support for Graduate Medical Education in
Minnesota During Fiscal Year 2000," (A-05-04-00071)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Support for Graduate Medical
Education in Minnesota During Fiscal Year 2000," (A-05-04-00071)
July 25, 2006
Complete
Text of Report is available in PDF format (280 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether (1) Minnesota followed the approved State plan
in administering the Medicaid graduate medical education program and (2) intergovernmental
transfers included any funds for graduate medical education.   Minnesota used $150,000
($77,220 Federal share) for administrative expenses, although the State plan earmarked these
funds for medical education.  Also, contrary to Federal regulations, the State plan
did not include a detailed description of the payment methodology used for the distribution
of the funds to teaching hospitals.  Concerning our second objective, we found that
while there were no intergovernmental transfers involved, six hospitals had reassigned funds,
totaling $15 million, back to the State.  Although the reassignments were required by
the State plan covering fiscal year 2000, we noted that this payment structure was changed
(effective fiscal year 2006) to no longer allow for the reassignments.
We recommended that Minnesota report a $77,220 financial adjustment and coordinate with
CMS to include appropriate language in the State plan to explain how the distributions of
Medicaid graduate medical education funds were computed and paid to eligible hospitals and
training sites.